Case: 21-20030

Document: 00515867350

Page: 1

Date Filed: 05/18/2021

Umteb States: Court of appeals:
for tfje Jftftlj Circuit
United States Court of Appeals
Fifth Circuit

No. 21-20030

FILED
May 18, 2021

Roxman C. Castro

Lyle W. Cayce
Clerk

Petitioner—Appellant^
versus
Bobby Lumpkin, Directory Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-4933

ORDER:
Roxman C. Castro, Texas prisoner # 1845477, moves for a certificate
of appealability (COA) to challenge the district court’s dismissal of his 28
U.S.C. § 2254 petition as time barred. He also moves for leave to proceed in
forma pauperis (IFP). Castro contends that he is entitled to equitable tolling
because he did not receive the denial of his state habeas application until after
the one-year period for filing his §2254 petition had run. Castro has
abandoned any challenge to the determination that his § 2254 petition was
untimely by not raising this argument in his application for a certificate of
appealability. See Blue v. Thaler, 665 F.3d 647, 662 (5th Cir. 2011).

Case: 21-20030

Document: 00515867350

Page: 2

Date Filed: 05/18/2021

No. 21-20030
!

A COA may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right. ” 28 U.S.C. § 2253(c)(2). To
satisfy this standard when the district court has denied a § 2254 petition on
procedural grounds, a petitioner must show “ that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling. ” Slack v. McDaniel,
529 U.S.473,484 (2000).
Reasonable jurists would not debate the determination that he was not
entitled to equitable tolling. Castro has not made the required showing.
Accordingly, his motion for a COA is DENIED and the motion to proceed
IFP is DENIED.
/s/ James L. Dennis
James L. Dennis
United States Circuit Judge

2

/I

E

D i X - Eb

United States District Court
Southern District of Texas

'____________ ENTERED
December 02, 2020
Southern District ogTvSXA&radiey, cierk

United States District Court

Roxman C. Castro,
Petitioner,
v.
Bobby Lumpkin,
Director, Texas Department
of Criminal Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§

Civil Action H-19-4933

Report and Recommendation
Roxman C. Castro has filed a petition for writ of habeas corpus under
28 U.S.C. § 2254 challenging his conviction for capital murder. (D.E. 1.) The
court recommends that the petition be dismissed with prejudice as timebarred.
1. Background
On February 12, 2013, a juiy in the 351st District Court of Harris
County, Texas, found Roxman C. Castro guilty. (D.E. 8-1 at 211.) The district
court sentenced him to life confinement in the Texas Department of
Criminal Justice without the possibility of parole. Id.
On August 26, 2014, the Court of Appeals for the First District of
Texas affirmed the district court’s judgment. (D.E. 8-4.) Castro sought
additional time to file a petition for discretionary review and the Texas
Court of Criminal Appeals granted an out-of-time petition. (D.E. 8-10 at 525, 37-40; D.E. 8-11.) Castro filed the petition, which the Texas Court of
Criminal Appeals refused on May 3, 2017. (D.E. 8-13, 8-16.) The Supreme
Court of the United States denied Castro’s petition for writ of certiorari on
October 30, 2017. Castro v. Texas, 138 S. Ct. 384 (2017) (mem.).
On October 23, 2018, Castro filed a state application for a writ of
habeas corpus. (D.E. 1 at 10; D.E. 8-18 at 4-27.) The Texas Court of
Criminal Appeals denied the application without written order on
November 27, 2019. (D.E. 8-19.) Castro states that he filed his federal
petition for writ of habeas corpus on December 6, 2019. (D.E. 1.)

2. Statute ofLimitations under 28 U.S.C. §2244
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA)
sets a one-year limitations period for federal habeas petitions. See 2 8 U.S.C.
§ 2244(d). The statute provides:
(d)(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court. The limitation
period shall run from the latest of(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the
time for seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such
State action;
(C) the date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the
right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on
collateral review; or
(D) the date on which the factual predicate of the claim
or claims presented could have been discovered
through the exercise of due diligence.
(2) The time during which a properly filed application for
State post-conviction or other collateral review with respect to
the pertinent judgment or claim is pending shall not be
counted toward any period of limitation under this
subsection.
28 U.S.C. § 2244(d)(l)-(2).
Because Castro challenges a state-court conviction, the limitations
period began to run on “the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking such
review." 28 U.S.C. § 2244(d)(1)(A). Castro’s conviction became final on
October 30, 2017, when the Supreme Court of the United States denied his
petition for writ of certiorari. United States v, Thomas, 203 F.3d 350, 356
(5th Cir. 2000). Absent tolling, the limitations period would expire one year
later, on October 30, 2018.
Under 28 U.S.C. § 2244(d)(2), the time during which a “properly
filed application for State post-conviction or other collateral review” is
pending does not count toward the one-year limitations period. “ [A] state

2

habeas petition is ‘pending’ for the purposes of tolling under § 2244(d)(2)
on the day it is filed through (and including) the day it is decided.”
Windland v. Quarterman, 578 F.3d 314, 315 (5th Cir. 2009).
Castro’s state habeas application is deemed filed on the date he
mailed it. See Richards v. Thaler, 710 F.3d 573, 578 (5th Cir. 2013). Because
Castro states that he mailed his application on October 23, 2018, the
application is deemed filed that day. (D.E. 1 at 10.) The Texas Court of
Criminal Appeals denied Castro’s state habeas application on November 27,
2019. (D.E. 8-19.) This tolled the limitations period for 400 days, extending
the deadline to file a federal habeas petition to December 4, 2018. Castro
mailed his federal petition two days late, on December 6, 2018. “AEDPA
relies on precise filing deadlines to trigger specific accrual and tolling
provisions." Lookingbill v. Cockrell, 293 F.3d 256, 265 (5th Cir. 2002)
(citing cases that “have denied tolling even where the petition was only a
few days late” because of the statute’s explicit timelines). Castro’s petition
is therefore time-barred. No other AEDPA provision applies to extend the
limitations period. See 28 U.S.C. § 2244(d) (1)(B)-(D).
Castro states that his petition is not time-barred because he was not
notified of the state habeas court’s decision until December 6, 2019.
“Federal courts interpret the federal time period as running from the event
described rather than from receipt of notice.” Lookingbill, 293 F.3d at 262
(collecting cases). The statutory tolling period ended when the Texas Court
of Criminal Appeals denied his petition, not when he received notice of the
denial.
A petitioner may be entitled to equitable tolling if he can establish
“(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way.” Pace v. DiGuglielmo, 544
U.S. 408, 418 (2005). Extraordinary circumstances may be found in
situations where a petitioner is actively misled about the cause of action or
is prevented from asserting his right to file by some extraordinary factor
beyond his control. Felder v. Johnson, 204 F.3d 168, 174 (5th Cir. 2000).
After his conviction became final, Castro waited nearly one year to file his
state habeas application. Nothing in the record shows that he was prevented
from filing the application earlier. Castro does not explain the delay. See
Coleman v. Johnson, 184 F.3d 398, 403 (5th Cir. 1999) (holding that
petitioner’s circumstances do not warrant equitable tolling when no

3

explanation for filing delay is given). Application of equitable tolling is not
warranted.
3. Conclusion
The court recommends that Lumpkin’s motion for summary
judgment be granted and that Castro’s petition for writ of habeas corpus be
dismissed with prejudice as time-barred.
The parties have fourteen days from service of this report and
recommendation to file written objections. See Rule 8(b) of the Rules
Governing Section 2254 Cases; 28 U.S.C. § 636(b)(1)(c); Fed. R. Civ. P. 72.
Failure to timely file objections will preclude appellate review of factual
findings or legal conclusions, except for plain error. See Thomas v. Arn, 474
U.S. 140, 147-49 (1985); Rodriguez v. Bowen, 857 F.2d 275, 276-77 (5th
Cir. 1988).
Signed at Houston, Texas, on December 2, 2020.

Peter Bray //
United States Magistrate Judge

4

Case 4:19-cv-04933 Document 15 Filed on 01/06/21 in TXSD Page 1 of 1

United States District Court

Southern District

United States District Court

of Texas
FNTFRFD
January 06, 2021
Nathan Ochsner, Clerk

Roxman C. Castro,
Petitioner,
v.

Bobby Lumpkin,
Director, Texas Department of
Criminal Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§

Civil Action H-19-4933

Order of Adoption
On December 2, 2020, Magistrate Judge Peter Bray
recommended that the court deny Castro's petition for writ of habeas
corpus as time barred. (13) In his objection (14), Castro claims to have
placed his federal petition in the prison mail system before the statute
of limitations expired on December 4, 2019. In his petition, under
penalty of perjury and in answer to a specific question about the date
of mailing, Castro stated that he placed his federal petition in the
prison mail system on December 6, 2019. (1) Castro does not explain
the discrepancy between the statements in his federal petition and the
conclusory claim in his objection. Castro's objection is denied. The
court adopts the report and recommendation as its memorandum and
opinion. The court will issue a separate final judgment.
Signed on January 6, 2021, at Houston, Texas.

—M
Lynn N. Hughes 1
United States District Judge

